Credit Card Agreement for Consumer Secured Cards in Capital One Bank (USA), N.A.
There are two parts to this Credit Card Agreement: Capital One Pricing Information and the Capital One Customer
Agreement. The Pricing Information shows a range of terms that includes both mail and online offers for new accounts
available under this Agreement as of June 30, 2021. The combination of terms that could apply to you will differ depending on
the specific card offer and on your creditworthiness at the time of application. The Customer Agreement contains important
information related to consumer credit cards issued by Capital One Bank (USA), N.A. Please visit www.capitalone.com to view
our online credit card offers. If you are a current Capital One cardholder, please log in to your account if you would like to request
the Credit Card Agreement for your account(s).
CAPITAL ONE PRICING INFORMATION
Annual Percentage Rate
(APR) for Purchases

22.99% - 26.99%.
This APR will vary with the market based on the Prime Rate.

APR for Transfers

22.99% - 26.99%.
This APR will vary with the market based on the Prime Rate.

APR for Cash Advances 22.99% - 26.99%.
This APR will vary with the market based on the Prime Rate.
Paying Interest

Your due date is at least 25 days after the close of each billing cycle. We will not charge interest
on new purchases, provided you have paid your previous balance in full by the due date each
month. We will begin charging interest on cash advances and transfers on the transaction date.

For Credit Card Tips from
the Consumer Financial
Protection Bureau

To learn more about factors to consider when applying for or using a credit card,
visit the website of the Consumer Financial Protection Bureau at
http://www.consumerfinance.gov/learnmore.

Annual Fee

None.

Transaction Fees
• Transfer

3% of the amount of each transferred balance that posts to your account at a promotional APR
that we may offer you.
None for balances transferred at the Transfer APR.

• Cash Advance

Either $10 or 3% of the amount of each cash advance, whichever is greater.

Penalty Fees
• Late Payment

Up to $40.

How Do You Calculate My Balance? We use a method called “average daily balance (including new transactions).” See “How
Do You Calculate The Interest Charge?” section below.
What Are My Billing Rights? Information on your rights to dispute transactions and how to exercise those rights is provided
in “Your Billing Summary” on your Statement and other Truth-in-Lending Disclosures.
THINGS YOU SHOULD KNOW ABOUT THIS CARD
How Do You Calculate Variable Rates? Your variable rates may change when the Prime Rate changes. We calculate
variable rates by adding a percentage to the Prime Rate published in The Wall Street Journal on the 25th day of December,
March, June and September. If the Journal is not published on that day, then see the immediately preceding edition. Variable
rates on the following segment(s) will be updated quarterly and will take effect on the first day of your January, April, July
and October billing periods: Purchase APR: Prime plus 19.74% - 23.74%; Transfer APR: Prime plus 19.74% - 23.74%; Cash
Advance APR: Prime plus 19.74% - 23.74%. Any increase in the Prime Rate may increase your Interest Charges and your
Minimum Payment.
What Are The Daily Periodic Rates Used To Calculate My Interest? The daily periodic rate for your Purchase APR is
0.06299% - 0.07395%, Transfer APR is 0.06299% - 0.07395%, and Cash Advance APR is 0.06299% - 0.07395%. See “How
Do You Calculate The Interest Charge?” section below.
How Do You Calculate The Interest Charge? We use a method called Average Daily Balance (including new transactions).
Under this method, we first calculate your daily balance; for each segment, 1) take the beginning balance and add in new
transactions and the periodic interest charge on the previous day’s balance, then 2) subtract any payments and credits for that
segment as of that day. The result is the daily balance for each segment. However, if you paid your previous month’s balance in
full (or if your balance was zero or a credit amount), new transactions which post to your purchase or special purchase segments
are not added to the daily balances. Also, transactions subject to a grace period are not added to the daily balances.
Next, to find your Average Daily Balance: 1) add the daily balances together for each segment, and 2) divide the sum by the
number of days in the billing cycle.

At the end of each billing cycle, we determine your Interest Charge as follows: 1) multiply your Average Daily Balance by the
daily periodic rate (APR divided by 365) for that segment, and 2) multiply the result by the number of days in the billing period.
NOTE: Due to rounding or a minimum interest charge, this calculation may vary from the interest charge actually assessed.

© 2021 Capital One. Capital One is a federally registered service mark. All rights reserved. Products and services offered by
Capital One Bank (USA), N.A. Capital One supports information privacy protection: see our website at www.capitalone.com.

Capital One® Customer Agreement
Welcome to Capital One

Credit Limits

Thank you for opening a credit card account with us.
This Customer Agreement including any changes to it
(“Agreement”) contains the terms of your agreement
with Capital One.

When you open your Account, we will tell you your credit
limits. These will also appear on your Statement. We may
also refer to your credit limits as your credit lines. We may
give you different credit limits for the different Segments
of your Account. For example, you may have one credit
limit for purchases and a different one for Cash Advances.
You are responsible for keeping track of your Segment
balances and your available credit. You must manage
your Account to remain below your credit limits. We may
honor transactions above your credit limits, but if we do
these transactions will not increase your credit limit. You
are responsible for paying for any transaction you make
above your credit limits.
We may also increase, decrease, restrict or cancel your
credit limit on any Segment at any time. This will not
affect your obligation to pay us.

Definitions
The meanings of the terms you see in italics appear in
the Glossary section at the end of this Agreement.
As used here, “you” and “your” mean each applicant
and co-applicant for the Account; any person
responsible for paying the Account; and any person
responsible for complying with this Agreement. “We,”
“us,” “our,” and “Capital One” mean Capital One Bank
(USA), National Association; and its agents, authorized
representatives, successors, and assignees.

Account Documents
The following documents govern your Account with us:
(1) this Agreement;
(2) all Statements;
(3) any rewards program terms, conditions, and disclosures;
(4) any privacy notices;
(5) your Card benefits brochure which describes
benefits provided by the Payment Card Network for
your Account;
(6) all disclosures and materials provided to you before
or when you opened your Account;
(7) any other documents and disclosures relating to your
Account, including those provided online; and
(8) any future changes we make to any of the above.
Please read these carefully and keep them for
future reference.

Using Your Account
(1) This Agreement applies whether or not you use your
Card or Account. It will continue to apply even after
your Account is closed, as long as you have a balance.
(2) You must sign the Card immediately when you
receive it.
(3) You must return the Card to us or destroy it if we ask
you to.
(4) You must take reasonable steps to prevent the
unauthorized use of your Card, Access Checks and
Account.
(5) We may decline to authorize a transaction for any
reason. This may occur even if the transaction would
not cause you to go over your credit limit or your
Account is not in default.
(6) We are not responsible for any losses you incur if we
do not authorize a transaction.
(7) We are not responsible for any losses you incur if
anyone refuses to accept your Card for any reason.
(8) Unless we tell you otherwise, we will bill each
transaction to the applicable Segment of your
Account. We will apply it against your available credit
for that Segment.
(9) You may obtain Cash Advances and Transfers as
permitted for your Account. You may not use these to
pay any amount you owe us or any other company in
the Capital One organization.
(10) You must not use, or try to use, the Card for any
illegal activity. You are responsible for any charges if
you do.
(11) We are not liable for any losses that may result
when our services are unavailable due to reasons
beyond our control.

New Offers
In the future, we may provide you with new offers that
we think may interest you. The terms of these offers may
differ from the standard terms on your Account. This
Agreement will still apply.

Account Information
We need information about you to manage your
Account. This includes:
(1) your legal name;
(2) a valid U.S. mailing address and residential address
(if different);
(3) your date of birth;
(4) your Social Security number or other government
identification number;
(5) your telephone number(s); and
(6) your employment and income information.
You must tell us when this information changes. We may
ask you for additional documents to verify any changes.
We may restrict or close your Account if we cannot verify
your information, or if you do not provide it as requested.

Rewards
Your Account may provide you with the opportunity to
earn rewards. If it does, we will separately provide you
with information and terms about the rewards.
1

Access Checks

your Card. They may have access to certain information
about your Account. You will be responsible for their use
of the Account and anyone else they allow to use your
Account, even if you did not want, or agree to, that use.

We may provide you with Access Checks. If we do, we
will tell you at the time if we consider them purchases,
Cash Advances or Special Transfers.
Only the person we designate may use Access Checks.
You may not use them to pay any amount you owe us or
any other company in the Capital One organization. We
may reject and not pay any Access Check if:
(1) your Account is past due, charged off, bankrupt, lost/
stolen or closed;
(2) we suspect fraud;
(3) your Account is over the credit limit; or
(4) the check has expired, is damaged or cannot
otherwise be processed.
Our liability if we do not pay an Access Check will never
be more than (1) your actual damages or (2) the amount
of the Access Check, whichever is less.
Use of an Access Check is not the same as using your
Card. When you use an Access Check, you will have
fewer rights to dispute merchant transactions than
with uses of your Card. Please see the “Billing Rights
Summary” on your Statement and your other Truth-inLending Disclosures for more information.

Removing an Authorized User
If you want to remove an Authorized User from your
Account, you must contact Customer Service and request
their removal. You also must immediately destroy all Cards
in their possession and cancel any arrangements they may
have set up on your Account. They will be able to use your
Account until you have notified us that you are removing
them from your Account. During this time, you will still be
responsible for all amounts they charge to your Account. You
will be responsible even if these amounts do not appear on
your Account until later.
Authorized Users may remove themselves from your
Account upon request. We reserve the right to remove
them from your Account for any reason. To remove them
from your Account, we may close your existing Account
and issue a new Card with a new Account number.

Your Promise to Pay
You promise to pay us all amounts due on your Account.
This includes amounts where you did not sign a purchase
slip or other documents for the transaction. We will treat
transactions made without presenting your actual Card
(such as for mail, telephone, Internet, or mobile device
purchases) the same as if you used the Card in person. If
you let someone else use your Card, you are responsible
for all transactions that person makes.

Stopping Payment of Access Checks
You may request a stop payment on any Access Check
by contacting contacting Customer Service.
We will have a reasonable amount of time after your
stop payment request to research and complete the
stop payment. We will not be responsible if we cannot
complete the stop payment. Reasons include:
(1) the Access Check was already paid;
(2) you do not give us the information we asked for; or
(3) the information you gave us was incorrect.
We do not have to release the stop payment order unless
the account holder who made the request asks us to.
If we re-credit your Account after a valid stop payment
order, you give us all of your rights against the payee or
other holder of the paid Access Check. You also agree to
help us in any legal action we may later take against the
payee or other holder of the check.

Statements
We will generally send or make available to you one
Statement for all Cards on your Account at the end of
each Billing Cycle. Under certain circumstances, the law
may not require us to send or make available to you a
Statement, or may prohibit us from doing so.

Disputed Transactions

Authorized Users

You must inspect each Statement you receive. Tell us
about any errors or questions you have, as described
in the “Billing Rights Summary” on your Statement and
other Truth-in-Lending Disclosures. If you do not notify
us of an error, we will assume that all information on the
Statement is correct.
If we credit your Account for all or part of a disputed
transaction, you give us all of your rights against others
regarding that transaction. You will also:
(1) give us any information about the disputed
transaction, if we ask;
(2) not pursue any claim or reimbursement of the
transaction amount from the merchant or any other
person; and
(3) help us get reimbursement from others.

If you ask us to issue a Card to any other person,
they are an Authorized User. We may require certain
information about them. We may limit their ability to use

We are not responsible for any claim you may have
regarding the purchase of goods or services made with

Using a PIN
We may give you a personal identification number (PIN).
For security reasons, you may have to provide the PIN
before you are able to use your Card.
Keep your PIN secure. Do not write it down, give it
to anyone, or keep it with your Card. If you lose your
Card or believe the confidentiality of your PIN has
been compromised for any reason, you must contact
Customer Service immediately.

No Warranties
2

your Card beyond your rights described in the “Billing
Rights Summary” on your Statement.

Cash Advance. We will treat this Fee as a Cash Advance
transaction.

Lost or Stolen Card

Transfer Fee

If your Card is lost or stolen or if you think someone else
may be using your Card or Account number without your
permission, you must contact Customer Service immediately.
You will not be responsible for transactions on your Account
that we find are unauthorized.
If we reimburse you for unauthorized transactions, you
will help us investigate, pursue and get reimbursement
from the wrongdoer. Your help includes giving us
documents in a form that we request.

We may charge you this Fee each time you make a
Transfer. We will charge the Fee to the same Segment
where we post the Transfer.

Transactions Made in Foreign Currencies
If you make a transaction in a foreign currency, the
Payment Card Network will convert it into a U.S. dollar
amount. The Payment Card Network will use its own
currency conversion procedures. The conversion rate
in effect on the processing date may differ from the rate
in effect on the transaction date that appears on your
Statement. We do not adjust the currency exchange rate
or charge any currency conversion Fees.

Interest Charges and Fees
We will charge Interest Charges and Fees to your Account
as disclosed on your Statement and other Truth-in-Lending
Disclosures. In general, Interest Charges begin to accrue
from the day a transaction occurs. However, we will not
charge you interest on any new transactions posted to the
purchase Segment of your Account if you paid the total
balance across all Segments of your Account in full by
the due date on your Statement each month. From time
to time, we may give you offers that allow you to pay less
than the total balance and avoid Interest Charges on new
purchase Segment transactions. If we do, we will provide
details in the specific offer.
We will generally treat Fees as purchase transactions
unless otherwise specified below. These Fees apply to
your Account only if your Truth-in-Lending Disclosures
provide for them. We may increase your Interest Charges
and Fees as described in the Changes to Your Agreement
section or in your Truth-in-Lending Disclosures.

Minimum Payment
You must pay us at least the minimum payment amount
by the payment due date. Your Statement will tell you:
(1) the minimum payment due,
(2) your new balance,
(3) the payment due date, and
(4) an explanation of when the payment must reach us
for us to consider it received as of that date.
Returns and other credits to your Account will reduce
your Account balance, but they will not change your
minimum payment amount.
In addition to the minimum payment, you may pay
all or part of the total balance on your Account. But,
you must still pay at least the minimum payment
amount each month, even if you paid more than the
minimum payment due on the previous Statement. We
will continue to charge Interest Charges during Billing
Cycles when you carry a balance regardless of whether
your Statement includes a minimum payment that is
due. If your Account is 180 days past due, is part of a
bankruptcy proceeding or is otherwise charged off, the
total balance is immediately due and payable.

Membership Fee
If your Account has a membership Fee, we may charge
the first membership Fee either on the day you activate
your Card or on the day when you use your Account,
whichever occurs first. If your Account terms include a
$0 introductory Fee, we may charge the first Fee when
the introductory period ends. If it is an annual Fee, we
may then charge it approximately once per year. If it is a
monthly Fee, we may charge it each Billing Cycle.

Making Payments
Your payment must be made in U.S. dollars from a U.S.
deposit account in a form acceptable to us. We do not
accept cash payments through the mail. You may not
make payments with funds from your Account or any
other credit account with us or any other company in
the Capital One organization. You must send mailed
payments to us as instructed on your Statement, unless
we tell you otherwise.

Late Payment Fee
We may charge you this Fee if we do not receive
your payment as instructed on your Statement by the
payment due date.

Returned Payment Fee
We may charge you this Fee each time your financial
institution for any reason rejects a payment you make to us.

Other Payment Services

Stop Payment Fee

We may make services available that allow you to make
faster or recurring payments online or by telephone. We
will describe the terms for using these services and any
applicable Fee before you use them. You do not have to
use these other payment services.
We are not responsible if your financial institution rejects
a payment made using our payment services.

We may charge you this Fee each time you ask us to
(1) stop payment on an Access Check or (2) renew an
existing stop payment order.

Cash Advance Fee
We may charge you this Fee each time you take out a
3

If you ask someone else to make a payment for you, we
may provide that person with limited Account information
necessary to set up and process that payment. We may
also refuse to accept that payment. If we do accept it, you
will be responsible for that payment even if a financial
institution rejects it.

and return it to you. We may also accept it and process
it without losing any of our rights.

Credit Balances
We may reject and return any payment that creates or
adds to a credit balance on your Account. Any credit
balance we allow will not be available until we confirm
that your payment has cleared. We may reduce the
amount of any credit balance by any new charges. You
may write to the address provided on your Statement
or call Customer Service to request a refund of any
available credit balance.

Payment Processing
We may accept and process payments without losing
any of our rights. We may delay the availability of
credit until we confirm that your payment has cleared.
This may happen even if we credit your payment to
your Account. We may resubmit and collect returned
payments electronically. If necessary, we may adjust
your Account to correct errors, process returned and
reversed payments, and handle similar issues.
When you send us an Item as payment, you authorize us to
make a one-time electronic fund transfer from your deposit
account. You also authorize us to process the payment as an
Item. We may withdraw the funds from your deposit account
as early as the same day we receive your payment. You will
not receive your Item back from your bank. We will provide
additional information about this process on your Statement.
We may use the information from an Item to create
an electronic image. We may collect and return the
image electronically. This electronic image may also be
converted to a substitute check and may be processed
in the same way we would process an Item. We will
not be responsible if an Item you provide has physical
features that when imaged result in it not being
processed as you intended.

Account Default
You will be in default if:
(1) you do not make any payment when it is due;
(2) any payment you make is rejected, not paid or
cannot be processed;
(3) you exceed a credit limit;
(4) you file or become the subject of a bankruptcy or
insolvency proceeding;
(5) you are unable or unwilling to repay your obligations,
including upon death or legally declared incapacity;
(6) we determine that you made a false, incomplete or
misleading statement to us, or you otherwise tried to
defraud us;
(7) you do not comply with any term of this Agreement
or any other agreement with us;
(8) you permanently reside outside the United States; or
(9) we receive a garnishment, attachment or other levy
upon the Security Account, or the Security Account
is subject to any other legal proceeding.
If you are in default, we may take certain actions with
respect to your Account. For example, depending on the
default, we may take the following actions, without notifying
you, unless the law says that we must give you notice:
(1) charge you Fees, or change the APRs and Fees on
your Account, if provided in your Truth-in-Lending
Disclosures;
(2) close or suspend your Account;
(3) lower your credit limit(s);
(4) demand that you immediately pay the total balance
owing on your Account;
(5) continue to charge you Interest Charges and Fees as
long as your balance remains outstanding; and/or
(6) file a lawsuit against you, or pursue another action that
is not prohibited by law. If we file a lawsuit, you agree to
pay our court costs, expenses and attorney fees, unless
the law does not allow us to collect these amounts.

How We Apply Your Payments
Your Account may have Segments with different Annual
Percentage Rates (APR). For example, purchases may
have a lower APR than Cash Advances. If your Account
has Segment balances with different APRs, here is how
we apply payments in a Billing Cycle:
(1) We generally apply credits and payments up to
your minimum payment first to the balance with the
lowest APR, and then to balances with higher APRs.
(2) We apply any part of your payment exceeding your
minimum payment to the balance with the highest
APR, and then to balances with lower APRs.

Items with Restrictive Words, Conditions,
or Instructions
You must mail all Items bearing restrictive words,
conditions, limitations, or special instructions to:
Capital One
PO Box 1330
Charlotte, NC 28201-1330

Communications
You agree that we may communicate with you by mail,
telephone, email, fax, prerecorded message, automated
voice, text message or other means allowed by law
regarding your Account.
You agree that we may contact you at any telephone number
(including a mobile telephone number that you provide us),
and use an automated telephone dialing system or similar

This includes Items marked “Paid in Full” or similar
language. This also includes all accompanying
communications.
If you make such a payment or send any accompanying
communications to any other address, we may reject it
4

Assignment

device to do so. You agree that we may monitor or record
any conversation or other communication with you.

This Agreement will be binding on, and benefit, any of
your and our successors and assigns. You may not sell,
assign or transfer your Account or this Agreement to
someone else without our written permission.
We may sell, assign or transfer your Account and this
Agreement without your permission and without prior
notice to you. Any assignee or assignees will take our
place under this Agreement. You must pay them and
perform all of your obligations to them and not us. If you
pay us after we notify you that we have transferred your
Account or this Agreement, we can return the payment
to you, forward the payment to the assignee, or handle it
in another way that is reasonable.

Credit Reports
We may report information about your Account to credit
bureaus and others. Late payments, missed payments,
or other defaults on your Account may be reflected in
your credit report. Information we provide may appear
on your and the Authorized Users’ credit reports.
If you believe that we have reported inaccurate
information about your Account to a credit bureau or
other consumer reporting agency, notify us in writing at
PO Box 30281, Salt Lake City, UT 84130-0281. When
you write, tell us the specific information that you believe
is incorrect and why you believe it is incorrect.
We may obtain and use credit, income and other information
about you from credit bureaus and others as the law allows.

Security Agreement
You must provide a security deposit in U.S. dollars
from a U.S. deposit account (the “Funds”) to secure
the obligations to us that you incur in connection with
your Account (“Obligations”). All Funds will be held in a
Security Account. We will maintain separate records of
your Security Account. The Security Account is insured
by the Federal Deposit Insurance Corporation (“FDIC”)
to the extent permitted by law. Subject to this Security
Agreement, you will be the beneficial owner of the
Security Account for purposes of FDIC insurance. We
will not send statements for the Security Account.
We may allow you to add additional Funds to the Security
Account in order to grant an increase of your credit limit.
You may not withdraw Funds from the Security Account
unless your Account is closed and paid to a $0 balance.
We will not pay interest on the Security Account, unless
we tell you we will in the secured credit Card offer. If
we do pay interest on the Security Account, it will be
deposited to the Security Account as proceeds of the
Funds to further secure the Obligations.
You grant to us, as of the date you deliver Funds to us, a
security interest in the Funds, any additions to the Funds,
any proceeds of the Funds and any interest on any of these
(collectively the “Collateral”) to secure your performance
of the Obligations. You irrevocably and unconditionally
relinquish possession and control over the Collateral, and
you pledge and assign as security to us all of your right, title
and interest in it. You must take any action we request to
perfect or protect our first lien position security interest in
the Collateral. You waive the benefit of any homestead or
other exemptions in the Collateral.
If (1) you are in default of any Obligation under the
Customer Agreement; or (2) your Account is closed for any
reason, you authorize us to withdraw Collateral from the
Security Account and apply such amounts to the Account
without sending you notice or demand for payment. We
may do this in addition to any other rights we have under
the law or the Agreement. The application of Funds to your
Account will not change your minimum payment amount.
You are responsible for the repayment of any Obligation

Closing or Suspending Your Account
You may contact Customer Service to ask us to close
your Account.
We may close or suspend your Account at any time and for
any reason permitted by law, even if you are not in default.
If we close or suspend your Account for any reason,
you must stop using your Card. You must also cancel all
billing arrangements set up on the Account. If we close
or permanently suspend your Account, you must return
or destroy all Cards. You must still pay us all amounts
you owe on the Account.

Changes to Your Agreement
At any time, we may add, delete or change any term of
this Agreement, unless the law prohibits us from doing
so. We will give you notice of any changes as required
by law. We may notify you of changes on your Statement
or in a separate notice. Our notice will tell you when and
how the changes will take effect. The notice will describe
any rights you have in connection with the changes.
Your variable APRs (if applicable) can go up or down as
the index for the rate goes up or down. If we increase
your APRs for any other reason, or if we change your
Fees or other terms of your Account, we will notify you
as required by law.

The Law That Applies to Your Agreement
We make decisions to grant credit and issue you a Card
from our offices in Virginia. This Agreement is governed
by applicable federal law and by Virginia law. If any part
of this Agreement is unenforceable, the remaining parts
will remain in effect.

Waiver
We will not lose any of our rights if we delay or choose
not to take any action for any reason. We may waive our
right without notifying you. For example, we may waive
your Interest Charges or Fees without notifying you and
without losing our right to charge them in the future.
5

•“Card” means any Capital One credit card associated
with your Account. This includes all renewals and
substitutions. It also means any other access device
for your Account we give you that allows you to obtain
credit, including any Account number.
•“Cash Advance” means a loan in cash or things we
consider cash equivalents, including wire transfers,
travelers’ checks, money orders, foreign currency,
lottery tickets, gaming chips, and wagers. We post
Cash Advances to the Cash Advance Segment of your
Account and not to your purchase Segment.
•“Fees” means charges imposed on your Account not
based on the Annual Percentage Rates.
•“Interest Charges” means any charges to your Account
based on the application of Annual Percentage Rates.
•“Item” means a check, draft, money order or other
negotiable instrument you use to pay your Account.
This includes any image of these instruments. This
does not include an Access Check.
•“Payment Card Network” means the network provider
displayed on your Card. This may be Visa Inc.,
MasterCard International Incorporated, or any other
network provider.
•“Segments” means the different parts of your Account we
may establish that are subject to unique APRs, pricing,
or other terms. We create these parts of your Account
for such things as your purchases, Balance Transfers,
Cash Advances and Special Transfers. The sum of your
Segment balances equals your total Account balance.
•“Special Transfer” means a Transfer posted to a
Segment of your Account that is not your purchase
Segment or Cash Advance Segment.
•“Statement” means a document showing important
Account information, including all transactions billed to
your Account during a Billing Cycle and information about
what you must pay. We may also refer to your Statement
as a “Periodic Statement” or a “Billing Statement”.
•“Transfers” means amounts transferred from other
accounts to this Account and includes Balance
Transfers and Special Transfers.
•“Truth-in-Lending Disclosures” means disclosures that the
federal Truth in Lending Act and Regulation Z require for
any Account. This includes your application and solicitation
disclosures, Account opening disclosures, subsequent
disclosures, Statements, and change in terms notices.

that is not satisfied by the application of Collateral. We may
take up to 60 days to return any excess Collateral to you.
Legal Proceedings.
(1) You represent that (a) there are no current lawsuits
or bankruptcy proceedings that might affect our
interest in the Collateral; and (b) You have not
and will not attempt to transfer any interest in the
Collateral to any other person or offer the Collateral
as security for any other obligation.
(2) If any other person seeks to attach the Collateral, for
example by legal garnishment, you agree that we may
deem the balance of the Account immediately payable
and apply the Collateral as payment of the Obligations.
(3) If we must hire an attorney to defend or enforce our
rights under this Security Agreement or to perform
any legal services in connection with this Security
Agreement, You will pay our reasonable attorneys’
fees and court costs, unless the law does not allow
us to collect these amounts.
If there is no activity with respect to your Account for
a prescribed period of time (generally five years), the
Collateral may be presumed to have been abandoned
and will escheat to and become the property of the
Commonwealth of Virginia or another applicable state. If
this happens, we will stop paying any interest on it. We
will notify you if required by law prior to escheating any
Collateral held under this Security Agreement.

Glossary
•“Access Check” means any check we send to you to
access credit from your Account. We may also refer
to an Access Check as a “convenience check” or a
“purchase check”.
•“Account” means your Card Account with us.
•“Authorized User” means a person who may use the
Card, but is not responsible for the repayment of the
Account.
•“Balance Transfer” means a Transfer posted to the
purchase Segment of your Account unless otherwise
described in your Truth-in-Lending Disclosures.
•“Billing Cycle” means the period of time reflected on
a Statement. This period may vary in length, but is
approximately 30 days. You will have a Billing Cycle even if
a Statement is not required. We will often specify a Billing
Cycle by the month in which its closing date occurs. For
example, a “March Billing Cycle” will have a closing date
in March. We may also refer to a Billing Cycle as a “Billing
Period”. If your Account balance has charged off, we may
switch to quarterly Billing Cycles for your Account.

© 2014 Capital One
Capital One is a federally registered service mark.
All rights reserved.
BR281642

M-112859

6

COF Customer Agreement 301

